Nos. 19-251 & 19-255

 

 

IN THE

Supreme Court of the United States

AMERICANS FOR PROSPERITY FOUNDATION,

Petitioner,
Vv.
MATTHEW RODRIQUEZ
Respondent.

ON WRITS OF CERTIORARI
To THE UNITED STATES COURT OF APPEALS
For THE NINTH CIRCUIT

BRIEF OF AMICI CURIAE SCHOLARS OF THE LAW
OF NON-PROFIT ORGANIZATIONS IN SUPPORT OF
RESPONDENT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,507 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 31, 2021.

 

Colin Casey"Hogan
Wilson-Epes Printing Co., Inc.
